No. 19-1195
In the

Supreme Court of the United States
ADALBERTO FRICKSON PALACIOS-SOLIS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

REPLY IN SUPPORT OF
PETITION FOR CERTIORARI
Martin A. Feigenbaum
P.O. Box 545960
Surfside, FL 33154

Vincent Levy
Counsel of Record
Daniel M. Sullivan
Gregory Dubinsky
Evan H. Stein
Holwell Shuster &
Goldberg LLP
425 Lexington Avenue, 14th Floor
New York, NY 10017
(646) 837-5151
vlevy@hsgllp.com

Counsel for Petitioner

A
(800) 274-3321 • (800) 359-6859

REPLY IN SUPPORT OF
PETITION FOR CERTIORARI
The Government acknowledges that the Court of
Appeals below squarely addressed an important question of constitutional law that has deeply divided the
Courts of Appeals—whether the prosecution violates
the Self-Incrimination Clause of the Fifth Amendment when it adduces post-arrest, pre-Miranda silence in its case-in-chief as evidence of guilt.
Seeking to avoid review, the Government comes up
with meritless evasions, primarily opposing certiorari
on the basis of supposed vehicle problems. But the
Government’s vehicle objections are all answered by
the simple fact that the Eleventh Circuit did not have
an alternate ground for its ruling and instead
squarely decided the issue presented here. And although the Government states that further percolation
is warranted in light of Salinas v. Texas, that case was
decided seven years ago, it addressed an entirely different issue, and the Courts of Appeals and state
courts remain deeply entrenched in their opposite positions. This Court’s intervention is therefore appropriate in this case, and necessary to ensure uniformity
on an important question of law.
ARGUMENT
1. The Government agrees that “courts of appeals
have reached different conclusions as to whether and
under what circumstances the prosecution may use a
defendant’s post-arrest, pre-Miranda silence as evidence of guilt in its case-in-chief”—i.e., the question
presented here. Opp. 13. And as the Government explains at length (Opp. 9-13), this question implicates
the meaning and scope of this Court’s foundational decisions—including Griffin v. California and Miranda

2
v. Arizona, among others. The result is, as the Government states, that in some jurisdictions “post-arrest, pre-Miranda silence” “may be used as evidence
of guilt even if the defendant was subject to custodial
interrogation,” while in other jurisdictions courts
deem “the use of [such] silence [to] violate[] the SelfIncrimination Clause.” Opp. 13-14.
In short, it is common ground that the question
presented (1) is the subject of a deep and acknowledged split, (2) concerns fundamental precepts in this
Court’s Fifth Amendment jurisprudence, and (3) results in the disparate use of evidence across jurisdictions in adjudicating criminal defendants’ guilt.
2. The Government claims that there are vehicle
problems, but these are illusory. The Government
does not dispute that the Eleventh Circuit addressed
Palacios-Solis’s Fifth Amendment argument on the
merits and “rejected” it based on “circuit precedent,
which determined that the government may use a defendant’s post-arrest, pre-Miranda silence in its casein-chief to prove the defendant’s guilt.” Opp. 8; see
App. 42a-43a. The Eleventh Circuit identified no alternate basis for its holding on this issue. 1 Thus, the
issue is squarely presented for the Court’s review.
In light of that critical point, the Government’s vehicle objections all lack merit. For instance, the Government claims that, because Palacios-Solis chose to
The lack of an alternate holding renders the Wilchcombe disposition inapposite. See United States v. Wilchcombe, 838 F.3d
1179, 1191 (11th Cir. 2016) (panel opinion holding, with respect
to the question presented there and here, that “any such error
would have been harmless in light of the ample evidence of his
guilt that was presented at trial”), cert. denied, 137 S. Ct. 2265
(2017). The Government ignores this crucial distinction.
1

3
take the stand in his own defense, his silence may
have actually been used by the prosecution to impeach
him. Opp. 17 (arguing that Palacios-Solis’s choice to
testify “would complicate any further review”). But
the Government also acknowledges that PalaciosSolis’s silence was adduced before he testified, and
during the prosecution’s case-in-chief. Opp. 6 (“In its
case-in-chief, the government . . . . elicited testimony
about petitioner’s silence . . . .”). 2 More to the point,
the Eleventh Circuit decided the question presented
here on the merits.
What the Government also ignores is that Palacios-Solis’s decision to testify may well have been
prompted by the very invocation of his silence itself,
which without his testimony would call “further attention to the fact that he has not arisen to remove whatever taint the . . . silence may have spread.” United
States v. Moore, 104 F.3d 377, 385 (D.C. Cir. 1997);
Pet. 16. That is all the more reason to grant certiorari;
it exemplifies that the use of post-arrest, pre-Miranda
silence burdens the defendant’s right to remain silent
during trial. Cf. Malloy v. Hogan, 378 U.S. 1, 8 (1964)
(a defendant should “suffer no penalty . . . for . . . silence” at trial).

The Government asserts that the prosecution did so “only once,”
but that ignores a separate instance in which the Coast Guard
officer testified during the prosecution’s case-in-chief that Petitioner and his co-defendants were not “jumping for joy” to see the
Coast Guard when they boarded the ship, yet another reference
to Palacios-Solis’s silence. Pet. 4 (quoting No. 16-cr-10050, Dkt.
172 at 93 (S.D. Fla. July 18, 2017)). Moreover, the prosecutor also
invoked the silence at closing, asking the jury “[w]hy” PalaciosSolis was silent “if [he] ha[s] nothing to hide.” Pet. 4-5.
2

4
The Government also argues that Palacios-Solis
was not subject to “custodial interrogation,” either because the Coast Guard’s right-of-visit boarding was
not custodial or else because its questioning was not
interrogatory. Opp. 16-17. But, again, the Eleventh
Circuit addressed Petitioner’s Fifth Amendment argument on the merits and rejected it. It did not issue an
alternate holding based on an absence of custodial interrogation or anything else. 3
Finally, the Government argues that because one
of the three judges on the panel concluded that the
other evidence against Palacios-Solis was “overwhelming,” any error was “harmless.” Opp. 18; App.
95a. The fact that only one of the judges so concluded,
and the others did not join, is the point here. As noted
in the petition and above, the panel decision undertakes no harmlessness analysis, and there is no basis
for its decision other than the question of law presented here. And because Petitioner’s first trial ended
in a mistrial, there is strong reason to doubt that, on
remand from this Court, the Court of Appeals would
find the evidence against him “overwhelming.” Pet. 14
& n.6.
3. The Government’s argument that this Court
should allow further percolation in light of Salinas
lacks merit. First, Salinas addressed only pre-arrest
silence; this case concerns post-arrest silence. Thus,
In any case, the Government is wrong that Palacios-Solis was
not in “custody.” As the Government’s cases explain, the “‘custody’ determination employs an objective test; the only relevant
inquiry is how a reasonable man in the suspect’s position would
have understood his situation.” United States v. Li, 206 F.3d 78,
83 (1st Cir. 2000). Here, given the Coast Guard’s high-speed pursuit and its use of warning shots (Pet. 2), a reasonable person
would have understood that he was under arrest.
3

5
the Courts of Appeals are unlikely to conduct the
“post-Salinas analysis” that the Government envisions, no matter how long the circuits remain split. 4
Second, and in any event, the Courts of Appeals
that have addressed the question presented post-Salinas have stuck to their pre-Salinas positions. See
Pet. 10-11. It has already been seven years since Salinas was decided and the circuit split remains as entrenched as before.
Because the split is entrenched, and the circuits’
respective positions on the issue are staked out, it
stands to reason that decisions addressing the question will be rare. Prosecutors in those jurisdictions
barring the use of post-arrest, pre-Miranda silence
will not seek to use that silence as evidence of guilt
(and potentially risk a mistrial). And defendants in
those jurisdictions allowing that silence to be used will
generally not preserve the issue simply to lose on appeal and in the hopes of obtaining Supreme Court review (Palacios-Solis’s trial counsel preserved the issue
specifically to permit this Court’s review).

Of course, individual panels of the Courts of Appeals are generally bound to follow prior circuit precedent unless an “intervening Supreme Court decision is ‘clearly on point.’” Atl. Sounding
Co. v. Townsend, 496 F.3d 1282, 1284 (11th Cir. 2007). Salinas
is not.
4

6
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,

MARTIN A. FEIGENBAUM
P.O. Box 545960
Surfside, FL 33154

VINCENT LEVY
Counsel of Record
DANIEL M. SULLIVAN
GREGORY DUBINSKY
EVAN H. STEIN
HOLWELL SHUSTER
& GOLDBERG LLP
425 Lexington Avenue
14th Floor
New York, NY 10017
(646) 837-5120
vlevy@hsgllp.com
Counsel for Petitioner

June 10, 2020

